 Criminal
 I nvestigative
 Policy &
 Oversight
         Evaluation of Criminal Investigative Activities
                         Performed by
                 The Defense Logistics Agency
Report Number CIPO2001S003                         November 8, 2000




              Office of the Inspector General
                  Department of Defense
                       Additional Information and Copies
This report was prepared by the Oversight Directorate, Office of the Deputy Assistant Inspector General
for Criminal Investigative Policy and Oversight, Office of the Inspector General, Department of
Defense. If you have questions on this evaluation or want additional copies of the report, visit the
Inspector General, DoD, Home Page at: http://www.dodig.osd.mil/dcis/cipo/evals.htm, or contact
Dr. Charles McDowell, Program Director, at (703) 604-8769 (DSN 664-8769) or Mr. Jack
Montgomery, Project Manager, at (703) 604-8703 (DSN 664-8703)

Acronyms Used in This Report

AFOSI                 Air Force Office of Special Investigations
AUSA                  Assistant United States Attorney
COSACS                Command Security Automated Control System
CSO                   Command Security Office
DCIA                  DLA Criminal Investigations Activity
DCII                  Defense Clearance and Investigations Index
DCIO                  Defense Criminal Investigative Organization
DCIS                  Defense Criminal Investigative Service
DLA                   Defense Logistics Agency
DoD                   Department of Defense
DoDD                  Department of Defense Directive
DoDI                  Department of Defense Instruction
IG, DoD               Inspector General, Department of Defense
LEAP                  Law Enforcement Availability Pay
MCIO                  Military Criminal Investigative Organization
NCIS                  Naval Criminal Investigative Service
OPM                   Office of Personnel Management
USACIDC               U. S. Army Criminal Investigation Command
                               INSPECTOR GENERAL
                              DEPARTMENT    OF DEFENSE
                                  -  ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA   12202.2.884

                                                         Nav - 8 3D)

MEMORANDUM
        FOR DIRECTOR, DEFENSELOGISnCS                             AGENCY

SUBJECT:      Final Report on the Evaluationof Criminal InvestigativeActivities
              Performedby the DefenseLogisticsAgency
              (ReportNo. CIPO2001S003)

        11risreport is provided for your review andcomment. Commentson the draft
reportwere consideredin preparingthe final report and are included in the final report as
Appendix F. Your agencyconcurredwith the draft report,exceptfor
RecommendationA.I, which involved reclassifyingsomecriminal investigatorsas
generalinvestigatorsbasedon the investigativework actually conduced. For the reasons
set forth in the [mal report, we did not acceptthe reasonsfor the nonconCUITence. We
askthat you reconsideryour position on this recommendation.

       Commentson the final reportare due 60 daysfrom the date of this memorandum.
They needonly addressyour position on RecommendationA.I and presentany updated
information relatedto actionstakenor plannedin responseto our individual
recommendations.Sendyour commentsto the Office of the Deputy AssistantInspector
Generalfor Criminal InvestigativePolicy and Oversight,Room 725, 400 Anny Navy
Drive, Arlington, Virginia 22202-2884. Shouldyou havequestions,pleasecontact
Mr. JackMontgomeryat 703-604-8703.

       We appreciatethe court.       xtendedto our evaluationstaff throughoutthis
project.

                                 CharlesW. Beardall
                          Deputy AssistantInspector     eral
                      Criminal InvestigativePolicy and Oversight
           EVALUATION OF CRIMINAL INVESTIGATIVE ACTIVITIES
                           PERFORMED BY
                   THE DEFENSE LOGISTICS AGENCY

                                                 TABLE OF CONTENTS

Executive Summary ..........................................................................................................i
Part I - Introduction ........................................................................................................1
          Background....................................................................................................................... 1
          Criminal Investigative Operations .................................................................................... 2
                      DLA Criminal Investigations Activity ............................................................................. 2
                      Command Security Office ................................................................................................ 3
                      Field Activities ................................................................................................................. 3
          Criminal Investigator Positions......................................................................................... 3
          Investigative Data System................................................................................................. 4
          Criminal Investigative Authority ...................................................................................... 5
          Evaluation Objectives, Scope, and Methodology ............................................................. 5
Part II - Results of Evaluation and Recommendations ................................................8
          A. Investigator Staffing vs. Investigations Conducted ..................................................... 8
                      Introduction ...................................................................................................................... 8
                      DLA Investigations........................................................................................................... 9
                      Standards for Classifying Investigator Positions ............................................................ 12
                      Recommendations, Management Comments and Evaluation Response ........................ 15
          B. Investigative Program Management.......................................................................... 19
                      Internal Operating Guidance........................................................................................... 19
                      Goals, Objectives and Performance Measures ............................................................... 21
                      Recommendations, Management Comments and Evaluation Response ........................ 22
          C. Compliance With Criminal Investigative Policy....................................................... 23
                      Investigating Fraud Offenses.......................................................................................... 23
                      Intercepting Wire, Electronic, and Oral Communications.............................................. 23
                      Titling and Indexing Investigative Subjects ................................................................... 25
                      Fingerprint Cards and Criminal History Reporting ........................................................ 27
                      Victim and Witness Assistance....................................................................................... 27
                      Recommendations, Management Comments and Evaluation Response ........................ 28

Appendix A – OIG, DoD Memorandum Regarding DLA Investigative Jurisdiction
Appendix B – DCIA Resident Offices
Appendix C – Random Case Sample Evaluation Results
Appendix D – DCIA Overtime and Comptime
Appendix E – Report Distribution
Appendix F – Management Comments
              EVALUATION OFCRIMINALINVESTIGATIVEACTIVITIES
                             PERFORMED BY
                      THE DEFENSE LOGISTICSAGENCY


                                   EXECUTIVE SUMMARY

    Introduction

          Within the Department of Defense (DoD), the Defense Criminal Investigative
    Organizations (DCIOs) are primarily responsible for investigating crimes that involve
    DoD property, programs, or personnel. 1 The Defense Logistics Agency (DLA), like a
    number of other DoD components, also has a criminal investigative program and has
    assembled a criminal investigative staff to conduct investigations.

             We undertook this evaluation to determine whether DLA criminal investigations
    are authorized, performed in accordance with acceptable standards, and produce
    appropriate results. To obtain factual information necessary to these determinations, we
    researched the statutory and regulatory authorities under which DLA conducts
    investigations. We also had DLA provide data for investigative cases closed between
    January 1, 1996, and February 28, 1999, a 38-month period. We then selected a
    statistically-valid, random sample from the closed cases that permitted us to draw
    conclusions at an acceptable (± 10 percent) reliability level. Finally, we evaluated the
    sample cases in detail to determine:
                 • the specific criminal violations/offenses that DLA investigators
    investigate;
                 • the extent to which DLA investigators use generally recognized criminal
    investigative techniques;
                 • the extent to which DLA investigators present their cases to Federal, state
    and local prosecutors;
                 • the extent to which DLA investigations are conducted jointly with other
    agencies; and
                 • the criminal, civil, and administrative results that stem from DLA
    investigations, including:
                         the estimated Government losses resulting from the crimes and the
    amounts recovered through investigation; and

1
    The DCIOs are the U.S. Army Criminal Investigation Command (USACIDC), the Naval Criminal
    Investigative Service (NCIS), the Air Force Office of Special Investigations (AFOSI), and the Defense
    Criminal Investigative Service (DCIS). DCIS is the criminal investigative arm of the IG, DoD. Excluding
    DCIS, these organizations are generally known as the Military Criminal Investigative Organizations
    (MCIOs).
                                                                                                              i
Executive Summary

                 the administrative actions, including employee disciplinary actions,
taken against DLA investigative subjects.


Evaluation Results

        Overall, we determined that DLA has capable investigators who conduct thorough
investigations. However, we identified a significant mismatch between the investigator
staffing that DLA utilizes and the type of investigations that DLA generally conducts.
We also identified needs for improvement in (1) investigative program management, and
(2) compliance with criminal investigative policy. Our findings in these areas are
summarized below.

        Staffing vs. Investigations. DLA is authorized to conduct criminal
investigations that the DCIOs decline and has assembled a senior criminal investigative
staff for this purpose. The agency’s investigations, however, are primarily administrative
in nature --cases are presented to criminal prosecutors only rarely (8 percent of
investigative subjects). Commonly, cases result in either agency administrative action
(60 percent of investigative subjects), or no action (12 percent of investigative subjects).
In addition, the investigations do not generally involve a full range of criminal
investigative techniques. As a result, there is a significant mismatch between actual DLA
investigator duties and those prescribed for a criminal investigator. Although DLA has
organized its investigative activities cost-effectively by employing noncovered criminal
investigators, the agency has not ensured that its criminal investigator skills and abilities
are used to the fullest extent possible as required in Office of Personnel Management
(OPM) standards for classifying investigator positions.

        Program Management. Although required in DoD Instruction 5505.2,
“Criminal Investigation of Fraud Offenses,” July 16, 1990, DLA has not established
specific procedures for investigating matters that the DCIOs decline. DLA also does not
have memoranda of understanding or other agreements with the DCIOs to guide referrals
to them, or to specify investigations that DLA may conduct without first referring the
matters to a DCIO. The DLA Criminal Investigations Activity (DCIA) either does not
attempt to refer matters to the DCIOs or does not record its attempts. As a result, DLA
investigators may conduct some investigations directly that the responsible DCIO should
investigate. In addition, DLA investigators would benefit from standard policy to guide
the criminal investigations actually conducted. In this regard, we support the DCIA
decision to use an existing DCIO Special Agents Manual when its agents need detailed
guidance. The DCIA, however, should formalize this decision in standard operating
policy.

       Compliance With Policy. Even though DLA investigations are more
administrative than criminal in nature, the agency is obligated to comply with DoD
policy governing criminal investigations when it conducts criminal investigations. DLA

ii
                                                                       Executive Summary

does not always comply with the DoD policy requirements that govern:
            • intercepting wire, oral and electronic communications;
            • titling and indexing investigative subjects;
            • fingerprinting investigative subjects that are Armed Forces members and
reporting their criminal histories and final case dispositions to the Federal Bureau of
Investigation; and
            • assisting crime victims and witnesses.


Summary of Recommendations

        We recommend the following corrective or improvement actions:
            • The Director, Defense Logistics Agency, reclassify current GS-1811
Criminal Investigator positions to GS-1810 General Investigator positions, except for
five GS-1811 Criminal Investigator positions, including the Director, DLA Criminal
Investigations Activity. To avoid operating and perception problems related to the
reclassifications, the Director, Defense Logistics Agency, may make the reclassifications
over time in filling current criminal investigator positions as they become vacant.
            • The Director, Defense Logistics Agency, take action to ensure that the
GS-1810 General Investigator employed at the Defense Supply Center, Richmond,
Virginia, is operating under a proper Employee Position Description for a GS-1810
General Investigator.
            • The Director, DLA Criminal Investigations Activity, enter into a
Memorandum of Understanding or other agreement with each Defense Criminal
Investigative Organization formalizing working arrangements between the organizations
and identifying the types of investigation that DCIA may conduct without prior referral
to the Defense Criminal Investigative Organizations.
            • The Director, DLA Criminal Investigations Activity, formally adopt the
Defense Criminal Investigative Service Special Agents Manual as detailed guidance for
its investigators to use in conducting criminal investigations.
            • The Director, DLA Criminal Investigations Activity, arrange needed
training or take other action as necessary to ensure that DCIA investigators are familiar
with, and adhere to requirements in, the following DoD policy:
                     DoD Directive 5505.9, “Interception of Wire, Electronic, and Oral
Communications for Law Enforcement,” April 20, 1995;
                     DoD Instruction 5505.7, “Titling and Indexing of Subjects of Criminal
Investigations in the Department of Defense,” May 14, 1992;
                     DoD Instruction 5505.11, “Fingerprint Card and Final Disposition
Report Submission Requirements,” December 1, 1998; and
                     DoD Directive 1030.1, “Victim and Witness Assistance,”
November 23, 1994, and DoD Instruction 1030.2, “Victim and Witness Assistance


                                                                                        iii
Executive Summary

Program,” December 23, 1994


Management Comments

        On June 9, 2000, we distributed this report in draft form for management
comments. On September 13, 2000, we received comments from DLA concurring with
the draft report, except for our recommendation that DLA reclassify some criminal
investigator positions as general investigators. DLA presented multiple reasons for its
nonconcurrence and advised that its current staffing classifications meet its current
mission requirements. DLA also advised that it reserved the right to adjust its criminal
and general investigator position mixture should its mission requirements change. (See
Appendix F)

        We generally agree with each rationale that DLA presents to justify maintaining
its criminal investigator positions. For example, DLA is clearly correct that it is not
possible to know, at the outset of an investigation, whether alleged misconduct will
constitute criminal behavior or meet thresholds for criminal prosecution. DLA is also
correct that an investigator who does not know criminal law and Federal Rules of
Criminal Procedure might handle evidence in a fashion affecting its admissibility in a
criminal case. DLA’s rationale, however, does not consider several important factors.
First, we did not recommend that DLA reclassify all criminal investigator positions. The
five criminal investigators remaining after the reclassification we recommended should
be more than adequate for DLA to:
            • conduct criminal investigations that the DCIOS decline; and
            • guide general investigator actions as necessary to preclude evidence and
other difficulties related to specialized criminal investigator knowledge and skill needs.

        Second, nothing precludes DLA from filling general investigator positions with
former criminal investigators already possessing specialized criminal investigator
knowledge. In fact, as discussed in the report, DLA currently has general investigators
who were formerly criminal investigators. Third, DLA currently has general
investigators who conduct criminal investigations, present cases to prosecutors, and
participate in the resulting court proceedings. Finally, although not detailed in our report,
DLA could save substantial investigator time and avoid the travel, training and other
costs associated with firearm qualification and other specialized training for criminal
investigators if the agency adopted our recommendation.




iv
             EVALUATION OF CRIMINAL INVESTIGATIVE ACTIVITIES
                             PERFORMED BY
                     THE DEFENSE LOGISTICS AGENCY


                                  PART I - INTRODUCTION

    BACKGROUND

            DLA is a combat support agency that was established in 1961, originally as the
    Defense Supply Agency. 2 DLA is responsible for supply support, contract
    administration services, and technical and logistics services to the Services and several
    civilian agencies.3 The agency supplies the Services and supports their weapon and
    materiel acquisitions, beginning with joint planning for new weapon system parts,
    continuing through production, and concluding with disposing items that have become
    obsolete, worn out, or no longer needed. The DLA mission includes managing over
    4 million consumable items, processing over 30 million distribution actions annually, and
    administering over $900 billion in DoD and other agency contracts. Headquartered at
    Fort Belvoir, Virginia, DLA employs approximately 40,600 civilian and military
    employees who perform the worldwide logistics mission at over 500 locations in all
    50 states and about 27 countries. DLA facilities range from supply centers employing
    several thousand people to in-plant residencies at Defense contractors and property
    disposal offices with fewer than 10 people.4

           In addition to managing contracts and buying and distributing goods, DLA
    manages several logistics support services:
               • the Defense Automated Printing and Support Center, which
    administratively supports all DLA activities in the Washington, D.C., area and other DoD
    organizations that support DoD-wide missions;
               • the Defense Reutilization and Marketing Service, which redistributes or
    disposes DoD equipment and supplies that have become obsolete, worn out, or no longer
    needed;



2
    DoD Directive (DoDD) 5105.22, “Defense Logistics Agency,” December 6, 1988, sets forth the overall
    DoD policy for DLA.
3
    Effective March 9, 2000, after our field work was essentially completed, the Deputy Secretary of Defense
    established the Defense Contract Management Agency and transferred contracting functions and
    12,950 employees from DLA to the new agency. The reorganization is not expected to have an immediate
    impact on DCIA, which expects to serve the new agency on a reimbursable basis.
4
    DLA operates 4 supply centers and 1 distribution center that is responsible for 21 depots. All except four
    depots are tenant facilities co-located on military installations. Four are stand-alone depots.
                                                                                                             1
    Part I - Introduction

               • the Defense Logistics Information Service, which manages the Federal
    Supply Catalog System; and
               • the Defense National Stockpile Center, which is responsible for managing
    and controlling strategic and critical materials.


    CRIMINAL INVESTIGATIVE OPERATIONS

            DLA has two headquarters-level organizational elements, as well as several field
    activities that conduct investigations. The headquarters elements are the DLA Criminal
    Investigations Activity and the Command Security Office (CSO).5 The field activities
    are:
                 • Defense Distribution Center, New Cumberland, Pennsylvania;
                 • Defense Supply Center Columbus, Columbus, Ohio;
                 • Defense Reutilization and Marketing Service, Battle Creek, Michigan;
                 • Defense Supply Center Richmond, Richmond, Virginia;

             DLA CRIMINAL INVESTIGATIONS ACTIVITY

            DCIA conducts investigations for the Director, DLA, for DLA field activity
    commanders, and for the General Counsel, DLA.6 Based on its mission statement, DCIA
    conducts investigations when the primary DoD investigative agency, a DCIO, declines
    investigative responsibility or accedes to a joint investigation.7 DCIA investigations
    typically involve alleged employee time and attendance fraud, travel fraud, standards of
    conduct violations, workman compensation fraud, or misuse of Government resources,
    including computers. DCIA also provides technical guidance related to enforcing trade
    security controls and investigates violations of trade security controls (generally
    involving property sold through the Defense Reutilization and Marketing Service). Trade
    security control investigations typically involve (1) efforts to export Munitions List or
    Strategic List items, (2) technology transfer, (3) fraud involving sales of Government
    property, or (4) theft involving Government property.




5
    DCIA is the only DLA organization specifically assigned a criminal investigative mission. DCIA is a
    Special Staff element for, and reports directly to, the Deputy Director, DLA. CSO reports to the Director,
    Corporate Administration, who reports to the Deputy Director, DLA.
6
    The Director, DLA, established the investigative program on December 15, 1989, to augment DCIO efforts
    and provide investigative capability for matters (a) of interest to the Director, (b) not suitable for referral to
    a DCIO, (c) not within mutually agreed DCIO investigative guidelines, or (d) declined for investigative
    responsibility by a DCIO.
7
    We note that, in accordance with DoD policy, DLA does not have the option to withhold a criminal
    investigation on grounds that it is not suitable for referral to a DCIO.
    2
                                                                                          Part I - Introduction

            DCIA is headed by a Director, a GS-1811-15 Criminal Investigator,8 and
     organized into three operating sections: the General Investigations Team (DCIA-C); the
     DLA Criminal Investigations Team Europe (DCIA-E); and the Trade Security Control
     Team (DCIA-T). Overall, DCIA is staffed with 22 GS-1811 Criminal Investigators,
     6 GS-086 Security Assistants, and 1 GS-318 Secretary, all of whom report to the
     Director, DCIA, either directly or through their respective section chiefs.9

             COMMAND SECURITY OFFICE

             CSO advises and assists the Director, Corporate Administration, and others on all
     security matters. This office is responsible for:
                • physical security at DLA facilities;
                • operating the DLA Hot Line and Agency Complaint Program; and
                • other law enforcement related issues.

             CSO is also the organization responsible for issuing policy and staff guidance
     related to all DLA GS-1810 General Investigators, GS-085 Security Guards, and GS-083
     Police Officers, including those assigned to DLA field activities that conduct
     investigations. CSO has 19 employees, including 2 GS-1810 General Investigators who
     conduct investigations similar to those that DCIA conducts.

             FIELD ACTIVITIES

             Investigators and police officers at DLA field activities report to their respective
     base or installation commanders. Overall, these field activities have seven GS-1810
     General Investigators and two GS-083 Police Officers (Detectives) who conduct
     investigations.


     CRIMINAL INVESTIGATOR POSITIONS

             DLA criminal investigator positions are not “covered” under 5 U.S.C. §8336(c)
     and, therefore, are not eligible for special law enforcement retirement benefits generally
     available to GS-1811 Criminal Investigators.10 They also are not authorized to receive
     Law Enforcement Availability Pay (LEAP).11

8
     Prior to July 1999, a military officer (Colonel) headed DCIA.
9
     All DCIA criminal investigators report to the Director at DCIA headquarters in Fort Belvoir, Virginia. Six
     are located at headquarters. The remainder are assigned to Resident Offices. DCIA-C has five Resident
     Offices, DCIA-E has one Resident Office, and DCIA-T has seven Resident Offices (see Appendix B).
10
     Criminal Investigators in covered positions must pay an additional ½ percent of their salaries into the
     retirement system, but may retire after 20 years service and are subject to mandatory retirement at age 57.
     According to DLA officials, DCIA hires only experienced military criminal investigators after they retire
                                                                                                               3
     Part I - Introduction


     INVESTIGATIVE DATA SYSTEM

             DLA Instruction (DLAI) 5705.1, “Reporting of Criminal Violations,”
     November 7, 1996, assigns responsibilities and prescribes procedures for reporting
     significant criminal incidents within DLA. This instruction implements DoD Instruction
     (DoDI) 5240.4, “Reporting of Counterintelligence and Criminal Violations,”
     September 22, 1992. It also establishes the Command Security Automated Control
     System (COSACS), which is DLA’s investigative case tracking system used to follow an
     investigation from opening until closing.12 DLA uses COSACS to:
                 • correlate factual information and track investigative actions; and
                 • analyze and report investigative information as necessary to meet law
     enforcement reporting requirements and respond to Secretary of Defense, congressional,
     and media requests.

           According to COSACS data, during January 1996 through February 1999
     (38 months), DLA closed investigations as shown in Table 1 below.

                                              Table 1
                                  DLA Investigations Closed During
                                   January 1996 – February 1999

                        Organization              Cases           Yearly              % of
                                                  Closed          Average             Total
                     CSO                                  656               207            57.34
                     DCIA                                 459               145            40.12
                     CSOI *                                 29                9              2.53
                         Total                          1,144               361           100.00


                              * Investigations conducted in Europe




     or separate from a MCIO. Due to the mandatory retirement provisions, DCIA could not follow this hiring
     practice if its criminal investigators were in covered positions.
11
     Eligible Criminal Investigators are paid LEAP equal to 25 percent of their base salaries, but also must
     average working 25 percent more hours, or an average 10 hour day.
12
     COSACS was created before DCIA was established and was not established as a criminal investigative
     data system only. The system is used to meet case tracking needs for DCIA, CSO, and the DLA General
     Counsel office. DLA is working to replace COSACS with a more current, capable system.
     4
                                                                                          Part I - Introduction


     CRIMINAL INVESTIGATIVE AUTHORITY

             DLA cites the following authorities for its criminal investigations:13
                 • DoDI 5505.2, “Criminal Investigations of Fraud Offenses,” July 16, 1990;
                 • 1990 verbal agreement between the DLA General Counsel and the Office
     of the Inspector General, Department of Defense (OIG, DoD), as documented in a letter
     to the Staff Director, Command Security, DLA, on February 4, 1994 (Appendix A);
                 • IG, DoD “Revised Interim Guidance for Criminal Investigations of Fraud
     Offenses Jurisdiction,” October 23, 1996; and
                 • authorities inherent in the Director, DLA, position.


     EVALUATION OBJECTIVES, SCOPE, AND METHODOLOGY

             Our objectives were to determine whether DLA criminal investigations are
     authorized, performed in accordance with acceptable standards, and produce appropriate
     results. To obtain factual information necessary to these determinations, we researched
     the statutory and regulatory authorities under which DLA conducts investigations. We
     also had DLA prepare a COSACS “data dump” for investigative cases closed between
     January 1, 1996, and February 28, 1999. We then selected a statistically-valid, random
     sample from DLA’s closed cases for the 38-month period for detailed case evaluations.
     This selection resulted in a 100 case random sample upon which determinations could be
     made with +10 percent reliability.

             The 100 case random sample selected for detailed evaluation involved
     151 investigative subjects. However, 64 percent of the sample (64 cases involving
     68 investigative subjects) were not criminal investigations with supporting investigative
     case files.14 In addition, 4 investigations involving 10 investigative subjects were
     essentially duplicate case files.15 Our detailed evaluations, therefore, were limited to
     32 cases and 73 investigative subjects (32 percent and 48 percent, respectively, of the
     cases and investigative subjects included in the sample). We evaluated these cases to
     determine:


13
     The cited authorities generally deal with fraud investigations. DLA also conducts general crimes
     investigations.
14
     Some COSACS “cases” involve trend analyses or other management initiatives to identify potential crime,
     but are not actual criminal investigations.
15
     One DCIA case involved a supervisor and two employees falsely certifying that equipment sold for scrap
     had been de-militarized. The case involved various equipment or metal types, and various sales
     transactions. DCIA treated each scrap sale transaction as a violation and established a separate
     investigative case file for the violation. The case files, however, were essentially duplicates even though
     each contained a Report of Investigation. For our purposes, we treated these cases as one investigation
     involving three subjects.
                                                                                                               5
     Part I - Introduction

                 • the specific criminal violations/offenses that DLA investigators
     investigate;
                 • the extent to which DLA investigators use generally recognized criminal
     investigative techniques;
                 • the extent to which DLA investigators present their cases to Federal, state
     and local prosecutors;
                 • the extent to which DLA investigations are conducted jointly with other
     agencies; and
                 • the criminal, civil, and administrative results that stem from DLA
     investigations, including:
                         the estimated Government losses resulting from the crimes and the
     amounts recovered through investigation; and
                         the administrative actions, including employee disciplinary actions,
     taken against DLA investigative subjects.

             In addition, during the course of our evaluation, we learned that DCIA may incur
     substantial overtime costs or authorize substantial compensatory time (comptime)16 for its
     criminal investigators to work the extra time involved in completing investigative
     functions. Since this cost could be viewed as additional compensation for DCIA criminal
     investigators not authorized to receive LEAP, we obtained and analyzed DCIA overtime
     records for the pay periods ending February 14, 1998, through March 11, 2000.17 We
     obtained this data from the Defense Finance and Accounting Service (DFAS).

             We conducted our work primarily at DLA Headquarters where the official
     investigative case files are maintained. We also met with and obtained information from:
                 • each DCIO; and
                 • the Legal Officer, Naval Air Station, Patuxent River, where DLA has a
     Defense Reutilization and Marketing Office (DRMO).

             In addition, we visited the Defense Distribution Center, New Cumberland,
     Pennsylvania, and the Defense Supply Center Richmond, Richmond, Virginia, to review
     investigations that GS-1810 General Investigators and GS-083 Police Officers at these
     locations conduct for their installation commanders. At these locations, we also met with
     and obtained information from the installation security, police, and legal staffs.


16
     OPM defines Compensatory Time Off as:
     o “Time off with pay in lieu of overtime pay for irregular or occasional overtime work, or
     o When permitted under agency flexible work schedule programs, time off with pay in lieu of overtime
     pay for regularly scheduled or irregular or occasional overtime work.” (http://www.opm.gov/oca/pay/
     HTML/COMP.htm. See also 5C.F.R §550.114)
17
     At the time of our data request, this period represented the total period following the DLA conversion to
     the Defense Civilian Pay System and the total period for which automated pay system data were reasonably
     available. DFAS would have had to use manual collection methods to furnish overtime data for any prior
     period.
     6
                                                                  Part I - Introduction

       We announced our evaluation on August 26, 1998. After obtaining information
and conducting research work, we conducted fieldwork and completed the evaluation
during April 7, 1999, through May 3, 2000.




                                                                                     7
              EVALUATION OF CRIMINAL INVESTIGATIVE ACTIVITIES
                              PERFORMED BY
                      THE DEFENSE LOGISTICS AGENCY


                   PART II - RESULTS OF EVALUATION AND
                             RECOMMENDATIONS

     A. INVESTIGATOR STAFFING VS. INVESTIGATIONS CONDUCTED

             DLA is authorized to conduct criminal investigations that the DCIOs decline and
     has assembled a senior criminal investigative staff for this purpose. The agency’s
     investigations, however, are primarily administrative in nature -- cases are presented to
     criminal prosecutors only rarely (8 percent of investigative subjects). Commonly, these
     cases result in agency administrative action (60 percent of investigative subjects) or no
     action against the investigative subject (12 percent of investigative subjects). In addition,
     the investigations do not generally involve a full range of criminal investigative
     techniques. As a result, there is a significant mismatch between actual DLA investigator
     duties and those prescribed for criminal investigators. Although DLA has organized its
     investigative activities cost-effectively, e.g., employing criminal investigators who are
     not entitled to 20 year retirement or LEAP, the agency has not ensured that its criminal
     investigator skills and abilities are used to the fullest extent possible as OPM standards
     require.

              INTRODUCTION

            Within DoD, the DCIOs are primarily responsible for investigating crimes that
     involve DoD property, programs, or personnel. DoD policy requires DoD components,
     including the Defense Agencies, to refer fraud matters to DCIS or the appropriate MCIO,
     depending on the specific jurisdictional responsibilities assigned in DoDI 5505.2,
     “Criminal Investigation of Fraud Offenses,” July 16, 1990, as modified in “IG, DoD
     Revised Interim Guidance for Criminal Investigation of Fraud Offenses Jurisdiction,”
     October 23, 1996. Furthermore, the MCIOs are responsible for investigating major
     crimes in their respective Services, and Service policies require referrals to the MCIO
     when Service member criminal activity is suspected. As a result, Defense Agencies
     generally have internal policies and procedures requiring their personnel to refer to the
     appropriate MCIO any criminal matter involving a military member assigned to work for
     the Defense Agency.18 However, DoDI 5505.2 also requires heads of Office of the

18
     DoD has not promulgated policy mandating such referrals. The MCIOs generally rely on their field
     commanders and agents-in-charge to foster relationships and local procedures that will ensure the referrals.
     8
Part II – Evaluation Results
      A – Investigator Staffing vs. Investigations Conducted
Secretary of Defense components and Defense Agencies to “… [e]stablish procedures
providing for the investigation of less significant fraud allegations when the DCIOs
neither investigate the matter nor refer it elsewhere for investigation.” Furthermore, the
OIG, DoD, specifically allowed DLA to conduct certain criminal investigations that the
DCIOs decline (see Appendix A). Accordingly, DLA is authorized to have an
investigative program and conduct certain criminal investigations.

        DLA Directive (DLAD) 5700.8, “Conduct of Investigations by DLA Criminal
Investigators,” November 7, 1996:

                “… prescribes DLA policy for investigations performed by
                criminal investigators assigned to … DCIA … and
                provides basic authority for conducting investigations,
                crime prevention surveys, and collecting, retaining, and
                disseminating criminal information by DLA investigators
                concerned with possible violations of civil and military
                laws and DoD publications.”


        According to DLAD 5700.8:

                “DCIA criminal investigators will provide criminal
                investigative support to the Director, DLA, the
                Commanders of DLA field activities, and to DLA GC,
                upon request, when the primary DoD investigative agency
                declines investigative responsibility or accedes to a joint
                investigation.    This includes investigations involving
                contract fraud and related irregularities such as bribes,
                gratuities, standards of conduct, or antitrust which will be
                performed only when requested by DLA GC or the
                cognizant DLA field activity office of counsel.”



        DLA INVESTIGATIONS

        Overall, our evaluation showed that:
            • DCIA is responsible for most (91 percent) DLA-conducted investigations.
CSO (including field activities) is responsible for the remaining investigations.
            • Fifty three percent of DLA investigations cite violations of Federal or
state law. However, DLA investigates more cases that deal with employee standards of
conduct (22 percent) than any other type of case. This case category is almost twice as
large as the next highest case category, False Statements, which accounts for 13 percent
of all DLA investigations.


                                                                                             9
     Part II – Evaluation Results
           A – Investigator Staffing vs. Investigations Conducted
                 • Most DLA investigative subjects (89 percent) are DLA employees or
     military members assigned to work at DLA.
                         About 3 percent are military members on whom DCIA conducts
     investigations without referral to the MCIO. These investigations may result in DLA
     returning the military member to his/her Service before the duty assignment with DLA is
     scheduled to end. However, the Service must initiate action under the Uniform Code of
     Military Justice. DLA does not have such authority.
                 • DLA investigators routinely use some generally recognized criminal
     investigative techniques, such as Defense Clearance and Investigations Index (DCII)
     checks, record reviews, and witness interviews. However, DLA investigations rarely
     involve:
                         Surveillance (15 percent of the subjects);
                         National Crime Information Center (NCIC) checks (3 percent of the
     subjects);
                         crime lab analysis (3 percent of the subjects);
                         sting operations (1 percent of the subjects);
                         search warrants (0 percent of the subjects);
                         arrest warrants (0 percent of the subjects); or
                         polygraph examinations (0 percent of the subjects).
                 • DLA investigators rarely present their cases to criminal prosecutors (only
     8 percent of the subjects), and court results (4 percent of the subjects) are rare in DLA
     cases.
                 • DCIA maintains and adequately controls one security container, a
     combination safe to store and protect physical evidence collected during criminal
     investigations. However, DLA collects physical evidence infrequently. The DCIA
     evidence log had four entries involving one investigation for calendar year (CY) 1998,
     two entries involving two investigations for CY 1999, and no entries for CY 2000
     through May 3, 2000.
                 • DCIA follows reasonable and appropriate steps to protect grand jury
     information, but does not have specific, formal policy to guide its actions related to grand
     juries.19 However, DCIA deals with grand juries infrequently. None of the
     investigations that we evaluated in detail involved a grand jury.
                 • DCIA has an informant or source program and budgets about $3,000 a
     year for this program. According to the Director, however, the agency has only three or
     four registered informants and when it utilizes informants, they are generally unpaid,
     informal informants.
                 • Joint investigations with other Federal agencies, primarily the DCIOs,
     account for 34 percent of DLA investigative cases and 33 percent of DLA investigative
     subjects. Joint investigations account for the larger, more serious DLA investigations.

19
     Rule 6(e), Federal Rules of Criminal Procedure, limits access to grand jury information to those persons
     that an Assistant United States Attorney authorizes, normally in writing, to have access.
     10
     Part II – Evaluation Results
           A – Investigator Staffing vs. Investigations Conducted
     However, we did not identify any criminal investigation in which DCIA initially referred
     the matter to a DCIO.
                 • DLA recovers a substantial portion (58 percent) of the estimated
     Government losses resulting from the activities investigated.20
                        Court-ordered fines, penalties, restitution, and special assessments
     account for 35 percent of total DLA investigative recoveries.
                        Administrative recoveries account for the remaining 65 percent.
                 • DLA investigations result primarily in either employee disciplinary
     actions (60 percent of the subjects) or no action against the investigative subject
     (12 percent of the subjects).
                        Most employee disciplinary actions are verbal or written reprimands
     (84 percent of the subjects with disciplinary actions).
                        Some employees (3 percent) resign from DLA or retire from Federal
     Service following investigation. However, employees who are investigated by DLA
     generally are not removed from Federal Service as a result of the investigations.
                 • Approximately 13 percent of DLA investigations are closed as
     unsubstantiated.
                 • Although DLA criminal investigators earn substantial overtime and
     comptime, the cost for this time is 71.2 percent less than DLA would incur if its criminal
     investigators earned Law Enforcement Availability Pay.

           See Appendix C for our complete analysis of DLA investigations. See
     Appendix D for our complete analysis of DLA overtime.

             The question that arises from these facts is whether DLA needs GS-1811
     Criminal Investigators to conduct its investigations. Although the allegations that DLA
     investigates are generally (53 percent) criminal in nature, DLA investigators normally
     (92 percent) pursue agency administrative remedies without presenting the matters to
     criminal prosecutors. In addition, DLA investigations generally do not involve the full
     range of criminal investigative techniques. DLA investigations do not routinely involve
     surveillance, NCIC checks, crime lab analysis, sting operations, search warrants, arrest
     warrants, or polygraph examinations. Overall, DLA investigations are primarily
     administrative in nature (compliance with rules and regulations), and DLA investigator
     duties primarily involve collecting data through interviews and record reviews, and
     writing investigative reports for management action. These primary duties do not require
     the knowledge, skill, and abilities required for a GS-1811 Criminal Investigator.

             As noted in the Introduction Section, DLA utilizes both GS-1811 Criminal
     Investigators (DCIA) and GS-1810 General Investigators (CSO) to conduct

20
     As discussed in Appendix C, DCIA claimed a large recovery in one investigation that was not typical of its
     day-to-day investigative activities. In addition, DCIA claimed this recovery without recognizing a
     corresponding loss to the Government. For the reasons discussed in Appendix C, we excluded the
     recovery claimed in this case for purposes of assessing DLA recovery rates.
                                                                                                            11
Part II – Evaluation Results
      A – Investigator Staffing vs. Investigations Conducted
investigations. DCIA has 22 criminal investigators. CSO has nine general investigators.
The GS-1810 General Investigators carry badges and credentials similar to criminal
investigators, and some are armed. In fact, the one employed at the Defense Supply
Center, Richmond, Virginia, was apparently hired under a criminal investigator position
description and, following the OIG, DoD, memorandum guidance (Appendix A), the
coversheet for the position description was changed to GS-1810. The position
description itself, however, was not changed in overall content. This investigator advised
us that he routinely interfaces with other Federal, state, and local law enforcement
officials, including Assistant United States Attorneys, Federal Magistrates, and state and
local prosecutors. This general investigator, as well as the two that we visited at the
Defense Distribution Depot, New Cumberland, Pennsylvania, indicated they do
essentially the same type investigations as DCIA criminal investigators and believe that
their positions should be classified in the same series as DCIA investigators.

        CSO management personnel at both locations also believe their investigators
should be criminal investigators. Those at the Defense Distribution Depot, New
Cumberland, advised us that labor union officials representing New Cumberland
employees do not view GS-1810 investigators as “capable” of conducting criminal
investigations and have challenged investigations conducted by GS-1810 investigators.
These CSO personnel also advised us that several years ago management disciplinary
actions taken against employees based on the investigations were reduced or set aside
completely due to labor union challenges. However, that situation was temporary, lasting
only until management became adept at dealing with the labor union challenges.

        STANDARDS FOR CLASSIFYING INVESTIGATOR POSITIONS

       OPM standards are the basis for classifying investigator positions. According to
the OPM “Grade Level Guides For Classifying Investigator Positions GS-1810/1811,”
February 1972, TS-8:

                “All Federal investigators perform fact-finding and
                reporting duties on assignments that normally unfold over a
                period of time. The key distinctions between the general
                and criminal investigating occupations lie in the different
                kinds of investigations performed by each and the different
                knowledge, skills, and abilities those different kinds of
                investigations impose.”


       Criminal investigators, in addition to requiring the knowledge, skills and abilities
described for the GS-1810 General Investigating Series, require:

                “… knowledge of the criminal laws and Federal rules of
                procedure which apply to cases involving crimes against

12
Part II – Evaluation Results
      A – Investigator Staffing vs. Investigations Conducted
                the United States, for example:
                - Knowledge of what constitutes a crime or violation as
                    defined in pertinent statutes, including the Uniform
                    Code of Military Justice, and statutes with anti-fraud or
                    similar criminal penalties; The kind of evidence that is
                    required to prove that a crime was committed;
                - The relationships among the criminal investigative
                    jurisdictions of various agencies;
                - Decisions and precedent cases involving:
                    o admissibility of evidence;
                    o search and seizure;
                    o arrest authority;
                - Sources of information, i.e., informants, and methods of
                    obtaining required evidence;
                - The methods and patterns of criminal operations;
                - Availability and use of modern detection devices and
                    laboratory services;
                - Awareness of continuing advances in investigative
                    technology” (Emphasis added)
                …
                “… skill… in such activities as:
                - Maintaining surveillance;
                - Performing undercover work;
                - Making arrests;
                - Taking part in raids.” (Emphasis added)
                …
                “… [ability in the] application of a number of techniques,
                such as:
                - Interviewing or interrogating suspects and witnesses;
                - Searching for physical or documentary evidence or
                    clues;
                - Using evidence to substantiate findings or conclusions;
                - Examining records to detect links in a chain of evidence
                    or information;
                - Using cameras and photostatic machines to record
                    evidence and documents;
                - Doing undercover work assignments;
                - Developing and using informants to get leads to



                                                                                13
Part II – Evaluation Results
      A – Investigator Staffing vs. Investigations Conducted
                    information;

                -   Maintaining surveillance;

                -   Preparing reports of investigation. (Emphasis added)


        Since DLA investigations are generally administrative in nature, DCIA
investigators do not generally need criminal investigative knowledge, skills and abilities
to conduct the investigations. In this regard, according to Section III, Paragraph J, OPM
“Grade Level Guides For Classifying Investigator Positions GS-1810/1811,” Feb 1972,
TS-8:

                “… the organization of work and the assignment of duties
                and responsibilities to positions are the responsibilities of
                agency managers and supervisors. This includes the
                requirement to assure that work is organized in an efficient
                and cost-effective manner and that the skills and abilities of
                employees are used to the fullest extent possible…”


         We do not question whether DLA has assigned duties and responsibilities to
investigator positions in an efficient, cost-effective manner. As noted previously, DLA
criminal investigators are in noncovered positions and, therefore, are not entitled to
20 year retirement or Law Enforcement Availability Pay. As also noted previously,
although DLA criminal investigators earn overtime and comptime, the cost is less than
the agency would pay for Law Enforcement Availability Pay. As a practical matter,
therefore, DLA does not incur higher costs from hiring criminal, rather than general,
investigators to staff DCIA. As a result of employing criminal investigators at DCIA,
however, DLA is not meeting the OPM requirement to use its employee skills and
abilities to the fullest extent possible and is operating contrary to the purpose for which
the criminal investigative series was established.

       On the other hand, DCIA investigators do perform some criminal investigations
and should have at least a core group of criminal investigators with the knowledge, skills,
and abilities necessary to complete these investigations. After considering
            • the total number of DLA criminal investigators (22),
            • the proportion of DLA investigations actually presented to criminal
prosecutors (8 percent of investigative subjects),
            • the need for adequate coverage during individual employee absences, and
            • the need for agency flexibility,

we believe that DLA should retain five criminal investigator positions, including the


14
     Part II – Evaluation Results
           A – Investigator Staffing vs. Investigations Conducted
     Director, DCIA, and reclassify its remaining GS-1811 Criminal Investigator positions to
     GS-1810 General Investigator positions. To avoid operating and perception problems
     related to the reclassifications, DLA may make the change over time in filling current
     criminal investigator positions as they become vacant.

            In addition, DLA should ensure that the GS-1810 General Investigator employed
     at Defense Supply Center, Richmond, Virginia, is operating under a proper Employee
     Position Description for a GS-1810 General Investigator.

             RECOMMENDATIONS, MANAGEMENT COMMENTS AND EVALUATION
             RESPONSE

             Recommendation A.1 The Director, Defense Logistics Agency, reclassify
     current GS-1811 Criminal Investigator positions to GS-1810 General Investigator
     positions, except for five GS-1811 Criminal Investigator positions, including the
     Director, DCIA. To avoid operating and perception problems related to the
     reclassifications, the Director, Defense Logistics Agency, may make the reclassifications
     over time in filling current criminal investigator positions as they become vacant.


             Management Comments

             DLA nonconcurred. According to DLA:
                 • at the outset of an investigation, it is impossible to know whether
     misconduct that has been alleged will constitute criminal behavior and, if criminal,
     whether the conduct meets Office of the United States Attorney thresholds for
     prosecution in a particular district;
                 • a general investigator without knowledge of criminal law or Federal Rules
     of Criminal Procedure may handle evidence in a fashion affecting its admissibility and
     may not be familiar with search and seizure rules and procedures, arrest authority, or
     criminal operation methods and patterns;
                 • the outcome of an investigation should not dictate the type of investigator
     that should conduct the investigation;
                 • a U.S. Attorney declination to prosecute does not mean a crime was not
     committed; it means the U.S. Attorney had other prosecutorial criteria, a heavy caseload,
     or other priorities;21




21
     There are additional reasons why an AUSA may decline prosecution; for example, the case may not have
     been fully developed. Our point in the report, however, was not that most DLA cases were declined for
     prosecution. Our point was that most DLA cases (about 92 percent) are not even presented to criminal
     prosecutors for acceptance or declination.
                                                                                                         15
Part II – Evaluation Results
      A – Investigator Staffing vs. Investigations Conducted
             • in 1986, DLA addressed the issue of how to proceed when a U.S. Attorney
declines prosecution and decided against participating in the U.S. Magistrate court
system because administrative remedies afforded the agency greater flexibility;
             • because DCIS routinely declines to investigate matters that U.S.
Attorney’s decline for prosecution, DLA must resolve these matters internally and, in
fact, established its criminal investigative activity to investigate less significant cases the
DCIOs decline to investigate;
             • DLA assumes a criminal prosecution may result when initiating every
investigation of potential criminal conduct; and needs investigators with the knowledge,
skills and abilities to conduct criminal investigations;
             • the draft report relied on a statistically valid case sample and concluded
that most resulted in administrative remedies; DLA suspects that the case sample
included general investigator, police detective and DoD police investigations completed
at post, camp, or station levels; DLA was not given the case listing and was unable to
review the same cases; however, based on the 64 cases (ROIs) that DCIA closed in 1999:
                     48 (75 percent) dealt with Title 18 or UCMJ violations;
                       1 (1.6 percent) was unfounded;
                     42 (66 percent) used investigative techniques beyond standard
interview and interrogation that general investigators normally employ;
                     • 21 (33 percent) used surveillance and photography;
                     • 14 (22 percent) used coordination with other law enforcement
organizations;
                     • 12 (19 percent) used forensic computer examination;
                     •     7 (11 percent) used Internet data searches;
                     •     1 (1.5 percent) used forensic laboratory analysis; and
                     •     1 (1.5 percent) used polygraph examination;
                     employing criminal investigators costs no more and ensures that
investigations of potentially criminal conduct are done by criminal investigators who
have the skills, knowledge and experience to finish those investigations properly in a
fashion which will merit criminal prosecution where appropriate and enable DLA to take
timely and effective administrative action where criminal prosecution is declined;
                     in military member cases, conducting preliminary investigative
inquiries ensures that:
                     • parent Service law enforcement personnel will take DLA
investigative conclusions seriously; and
                     • DLA can rely on the investigative results when requesting the
parent Service to accept the military member’s return to parent Service control for UCMJ
action.




16
     Part II – Evaluation Results
           A – Investigator Staffing vs. Investigations Conducted
              Evaluation Response

             We agree with many DLA arguments presented to justify maintaining its criminal
     investigator positions. For example, DLA is clearly correct in arguing that it is not
     possible to know, at the outset of an investigation, whether alleged misconduct will
     constitute criminal behavior or meet thresholds for criminal prosecution. DLA is also
     correct that an investigator who does not know criminal law and Federal Rules of
     Criminal Procedure might handle evidence in a fashion affecting its admissibility in a
     criminal case. Further, DLA is correct that our case sample included investigations that
     both CSO (general investigators and police detectives/officers) and DCIA (criminal
     investigators) conducted. As described previously in the evaluation scope and
     methodology section, our evaluation scope included both CSO and DCIA investigations.
     It would have been inappropriate for us to limit our case sample to DCIA cases.22

             Overall, however, DLA’s arguments and rationale do not consider several
     important factors. First, we did not recommend that DLA reclassify all criminal
     investigator positions. The five criminal investigators remaining after the reclassification
     we recommended should be more than adequate for DLA to:
                 • conduct criminal investigations that the DCIOs decline; and
                 • guide general investigator actions as necessary to preclude evidence and
     other difficulties related to specialized criminal investigator knowledge and skill needs.

             Second, nothing precludes DLA from filling general investigator positions with
     former criminal investigators already possessing specialized criminal investigator
     knowledge, skills and abilities. In fact, as discussed in the report, DLA currently has
     general investigators who were formerly criminal investigators. Finally, DLA is not
     completely correct in stating that it does not incur higher costs from employing criminal
     investigators. Although not detailed in our report, DLA invests substantial investigator
     time and incurs travel, training and other costs associated with firearm qualification and
     other specialized training for criminal investigators. The agency could avoid this cost if
     it adopted our recommendation.

              Recommendation A.2 The Director, Defense Logistics Agency, take action
     to ensure that the GS-1810 General Investigator employed at Defense Supply Center,
     Richmond, Virginia, is operating under a proper Employee Position Description for a
     GS-1810 General Investigator.


22
     It is important to note, however, that our case sample included only four (12.5 percent of the total) CSO
     investigations. Our overall analytic results, therefore, are based primarily on DCIA investigations. For
     example, overall, we found that only 8 percent of DLA investigations were presented to prosecutors and
     only 4 percent of DLA investigative subjects were taken to court. For DCIA cases alone, only 9 percent
     were presented to prosecutors and only 5 percent of the subjects were taken to court. Our analysis was
     based on cases closed during the last 3 years and should better indicate DLA’s continuing investigative
     program.
                                                                                                                 17
Part II – Evaluation Results
      A – Investigator Staffing vs. Investigations Conducted
        Management Comments

        DLA concurred and advised that the action had been completed.


        Evaluation Response

        The DLA comments are responsive.




18
     B. INVESTIGATIVE PROGRAM MANAGEMENT

             Although required in DoDI 5505.2, DLA has not established specific procedures
     for investigating matters that the DCIOs decline. DLA also does not have memoranda of
     understanding or other agreements with the DCIOs to guide referrals to the DCIOs, or to
     specify investigations that DLA may conduct without first referring the matters to a
     DCIO. In fact, DCIA either does not refer matters to the DCIOs initially or does not
     record either its referral attempts or DCIO declinations in its investigative case files. As
     a result, DCIA may conduct some investigations directly that the responsible DCIO
     should investigate. DCIA and the DCIOs would benefit from agreements identifying the
     types of investigations that DCIA may conduct directly without prior referral to the
     appropriate DCIO. In addition, DCIA and its individual investigators would benefit from
     standard policy to guide DCIA investigations. In this regard, we support the apparent
     DCIA decision to use the DCIS Special Agents Manual when its agents need detailed
     guidance. DCIA, however, should formalize this decision in standard operating policy.

             INTERNAL OPERATING GUIDANCE

              DLA criminal investigators are generally former MCIO criminal investigators
     hired after they complete military careers. According to DCIA management, DCIA staffs
     its criminal investigative operations with seasoned criminal investigators who know how
     to conduct investigations. As a result, DLA does not have substantial internal policy or
     other guidance for its criminal investigative activities. Unlike the DCIOs, for example,
     DCIA does not have a “Special Agents Manual” or “Criminal Investigator Manual”
     setting forth detailed procedures and guidance for its investigators to follow when
     initiating and completing different investigative actions or different types of
     investigations.23 DLA also does not have internal policy requiring referrals to the
     DCIOs, either generally or when Service member criminal activity is suspected. Further,
     DLA does not have memoranda of understanding or other agreements with the DCIOs to
     guide referrals to the DCIOs, or to specify investigations that DLA may conduct without
     first referring the matters to a DCIO.

             As noted previously, our detailed case file reviews did not identify any case in
     which DCIA referred a criminal investigative matter to a DCIO before undertaking the
     investigation directly.24 Our evaluations also did not identify any case involving a
     Service member where DCIA attempted to refer the matter to the responsible MCIO. For
     example, in one 1997 investigation involving a U.S. Army Colonel, DCIA conducted the

23
     We were advised that DCIA criminal investigators use the DCIS Special Agents Manual on occasion when
     they need such detailed guidance.
24
     It is possible that DCIA used telephone contacts with the DCIOs to identify referral potential. However,
     the investigative files did not reflect the contacts.
                                                                                                          19
     Part II – Evaluation Results
           B – Investigative Program Management
     investigation without first referring the matter to the USACIDC. In this case, the Colonel
     was alleged to have committed a number of illegal acts by:
                 • using airline frequent flyer miles earned while on official Government
     travel to upgrade him and his family to first class seating during a permanent change of
     station move;
                 • authorizing and purchasing higher priced airline tickets to solicit upgrades
     to business class seating;
                 • using a false official travel status to receive a lesser lodging rate in civilian
     accommodations when he was not entitled to the lesser rate; and
                 • using a subordinate employee to tap into a cable television system for
     personal use at his Government office without paying for the services.

             The alleged acts violated specific laws, Joint Federal Travel Regulations, and
     DoD Standards of Conduct, and were punishable under the Uniform Code of Military
     Justice.25

             Before DCIA completed the investigative work and wrote the report of
     investigation (ROI), the Colonel completed the duty assignment where the alleged
     violations occurred and was reassigned to a new duty station. After DCIA completed the
     investigation, in March 1997, DCIA referred the ROI and a request for an after-action
     report to the Colonel’s new commander. In response, in February 1998, DCIA received a
     memorandum advising that the Office of the Staff Judge Advocate handled the
     disciplinary proceedings and that the matter was concluded in July 1997. The report was
     unclear as to the nature, extent, or outcome of the “disciplinary proceedings” involving
     the Colonel.26

             In attempting to follow up on this case and determine the actual outcome, we
     were told that:
                 • the Commanding General at the new duty station and the Colonel entered
     into an informal agreement under which the Colonel was to retire from the Army not later
     than March 31, 1998;
                 • anticipating the retirement, the Colonel began transition leave in
     January 1998, and accepted employment with a civilian company;
                 • after the agreement, the Commanding General retired from the Service
     effective in December 1997;



25
     In 1995, DCIA investigated the same Colonel for similar alleged violations, which resulted in the Colonel
     receiving an official Letter of Reprimand.
26
     This investigation did not involve a “Senior Official” as defined in DoDD 5505.6, “Investigations of
     Allegations Against Senior Officials of the Department of Defense,” July 12, 1991, which would have
     required reporting to IG, DoD. Although the Colonel’s rank would have warranted a Significant Incident
     Report to IG, DoD, in accordance with DoDI 5240.4, “Reporting of Counterintelligence and Criminal
     Violations,” September 22, 1992, the estimated loss to the Government did not warrant the reporting.
     20
     Part II – Evaluation Results
           B – Investigative Program Management
                 • after the Commanding General retired, the Colonel asked to withdraw his
     retirement papers and be reinstated;
                 • the Commanding General did not formalize a punitive action based on the
     investigative findings; and
                 • since nothing appeared in the Colonel’s official personnel record, the
     Army reinstated the Colonel, and he continues on active duty to the current time.

             We posit that this matter likely would have been handled more effectively had
     USACIDC conducted the investigation and maintained judge advocate participation
     throughout the case.27 In any event, DCIA and the DCIOs would benefit from
     agreements identifying the types of investigations that DCIA may conduct directly
     without prior referral to the appropriate DCIO. In addition, DCIA and its individual
     investigators would benefit from standard policy to guide DCIA investigations. In this
     regard, we support the apparent DCIA decision to use the DCIS Special Agents Manual
     when its agents need detailed guidance. DCIA, however, should formalize this decision
     in standard operating policy.

             GOALS, OBJECTIVES AND PERFORMANCE MEASURES

             DCIA does not prepare an annual plan and, instead, contributes to the overall
     DLA Strategic Plan. Goal 2, DLA Strategic Plan 2000, is “Reduce Costs – improve
     efficiency – increase effectiveness,” which is consistent with stated DCIA goals and is
     consistent with the stated DCIA objective “… to reduce ultimate costs by reducing theft,
     fraud, waste and abuse within DLA.”

            Although DCIA has not developed specific performance measures against which
     to compare accomplishment of the objective, its Mission Statement declares:

                      “Measures of success are the investigation results that
                      provide sufficient products to enable customers to take
                      appropriate action. Investigative products are effectively
                      used to resolve high and low profile incidents of potential
                      embarrassment to the Agency.”


     Our evaluation did not reveal any prior assessment of actual DCIA performance relative
     to its stated goals and objective. However, our evaluation showed that DCIA
     investigations generally do produce remedies, albeit remedies that are primarily agency
     administrative actions. Overall, they also result in significant Government recoveries
     that include both monetary and property/equipment recoveries. The investigations,
     therefore, do contribute to reducing theft, fraud, and abuse in DoD.

27
     USACIDC did run some investigative leads in the case, but did not assume lead agency responsibility and
     the investigation was not subject to USACIDC requirements.
                                                                                                          21
Part II – Evaluation Results
      B – Investigative Program Management
       RECOMMENDATIONS, MANAGEMENT COMMENTS AND EVALUATION
       RESPONSE

       Recommendation B.1 The Director, DLA Criminal Investigations Activity,
enter into a Memorandum of Understanding or other agreement with each Defense
Criminal Investigative Organization formalizing working arrangements between the
organizations and identifying the types of investigation that DCIA may conduct without
prior referral to the Defense Criminal Investigative Organization.


       Management Comments

      DLA concurred and advised that its estimated completion date for the action is
October 1, 2001.


       Evaluation Response

       The DLA comments are responsive.

       Recommendation B.2 The Director, DLA Criminal Investigations Activity,
formally adopt the Defense Criminal Investigative Service Special Agents Manual as
detailed guidance for program administration and for investigator use in conducting
criminal investigations.


       Management Comments

      DLA concurred and advised that its estimated completion date for the action is
October 1, 2001.


       Evaluation Response

       The DLA comments are responsive.




22
C. COMPLIANCE WITH CRIMINAL INVESTIGATIVE POLICY

        When DLA conducts criminal investigations, the agency is required to comply
with DoD policy governing criminal investigations. Our evaluation shows that DLA
does not always comply with policy requirements that govern:
            • Investigating fraud offenses.
            • Intercepting wire, oral and electronic communications.
            • Titling and indexing investigative subjects.
            • Fingerprinting investigative subjects that are Armed Forces members and
reporting their criminal histories and final case dispositions to the Federal Bureau of
Investigation.
            • Assisting crime victims and witnesses.

       INVESTIGATING FRAUD OFFENSES

        DoDI 5505.2, “Criminal Investigations of Fraud Offenses,” July 16, 1990,
requires that heads of OSD components and Defense Agencies (a) “[e]stablish procedures
… to ensure that all allegations of fraud involving persons affiliated with the Department
of Defense and any property or programs under their control or authority are referred
promptly to the DCIS…” (emphasis added), and (b) “[e]stablish procedures providing for
the investigation of less significant fraud allegations when the DCIOs neither investigate
the matter nor refer it elsewhere for investigation. (Examples of alternative investigative
resources include military or security police elements, other designated DoD
investigators, or command authorities.)” DCIA has not established procedures for
referring fraud allegations to DCIS. Furthermore, based on our detailed case evaluations,
DCIA either does not attempt to refer matters to a DCIO initially or does not record such
attempts in its investigative case files, which indicates the investigative files are
incomplete. Moreover, although DLA has issued policy implementing DoDI 5505.2, the
agency has not established specific procedures for investigating matters that the DCIOs
decline as specifically required in DoDI 5505.2. (Recommendation B.1 in Section B
above obviates the need for specific corrective action related to this noncompliance
issue.)

       INTERCEPTING WIRE, ELECTRONIC, AND ORAL COMMUNICATIONS

        DoDD 5505.9, “Interceptions of Wire, Electronic, and Oral Communications for
Law Enforcement,” April 20, 1995, establishes policy and responsibilities governing
intercepts conducted by DoD law enforcement personnel. The Directive provides that:

               “The Secretaries of the Military Departments, or designees,

                                                                                        23
     Part II – Evaluation Results
           C – Compliance with Criminal Investigative Policy
                      the IG, DoD, or designee, and the Director, Washington
                      Headquarters Services (WHS), shall authorize consensual
                      interception of wire, electronic, and oral communications
                      for law enforcement with legal approval…”
                      “The only DoD Components authorized to intercept wire,
                      electronic, and oral communications, … are … USACIDC,
                      … NCIS, … AFOSI, and … DCIS.”
                      “The DPS is authorized to employ only consensual
                      interception techniques…after legal approval and approval
                      by the Director, WHS. The authorization is limited to the
                      extent that the interception techniques pertain to the
                      enforcement of laws for the protection of persons or
                      property under jurisdiction of the DPS.”


             In addition to this policy, DoD O-5505.9M sets forth procedures for requesting
     and approving law enforcement intercepts, the related reporting requirements, and
     specific guidance for storing, retaining and disposing interception equipment. The
     manual specifies that:

                      “…consensual interceptions of wire, electronic, or oral
                      communications shall be approved in writing by the
                      Secretaries of the Military Departments, or their designees,
                      by the IG, DoD, or designee, or the Director, Washington
                      Headquarters Services, before such interception is
                      conducted, except in emergency situations...”
                      “…the Secretaries of the Military Departments, or
                      designess; the Director, DCIS, or designee; and the DPS,
                      shall submit reports…”
                              “Quarterly. For the quarters ending in March, June,
                      September, and December, to be received by the 30th day of
                      each following month, a report of all consensual
                      interceptions of wire, electronic, and oral communication
                      approved or done, or for which approval extensions were
                      granted during the quarter…”28
                      “The IG, DoD, shall consolidate all reports provided…and
                      provide them to the Attorney General of the United States.”




28
     This reporting requirement was in effect at the time that DCIA performed the consensual monitoring
     discussed in this report. Based on subsequent U.S. Attorney General guidance, this reporting was deleted
     from DoD O-5505.9M following required February 1999 reporting to the Attorney General.
     24
Part II – Evaluation Results
      C – Compliance with Criminal Investigative Policy
        Our random sample of DCIA investigations included one case (3 percent of the
total sample) in which DCIA conducted a consensual monitoring of a former DLA
employee. DCIA sought and obtained AUSA approval to conduct the monitoring.
However, the monitoring was contrary to the DoD policy requirements described above,
which limit approval authority for consensual monitoring and the DoD organizations that
may engage in consensual monitoring. In addition, DCIA did not report the consensual
monitoring to OIG, DoD, as required for inclusion in overall DoD reporting to the U.S
Attorney General.

        TITLINGAND INDEXING INVESTIGATIVE SUBJECTS

        DoDI 5505.7, “Titling and Indexing of Subjects of Criminal Investigations in the
Department of Defense,” May 14, 1992, requires investigating agencies to report “[t]he
fact that an investigation has started and the identity of the subject when known … to the
Defense Clearance and Investigations Index for indexing.”29 Our detailed case
evaluations established that DCIA generally complied with these reporting requirements.
However, our case evaluations also showed that some DCIA investigative “suspects”
never became investigative subjects after DLA counsels opined that there was
“insufficient evidence” or “insufficient probable cause” to title the suspects. Since DoD
policy requires investigators to make titling decisions based on a “credible information”
standard, the agency’s DCII inputs may be incomplete.

        The primary purpose for titling and indexing an individual or entity as the subject
of a criminal investigation in the DCII is to ensure that information in a report of
investigation can be retrieved at some future time for law enforcement and security
purposes. DoDI 5505.7, “Titling and Indexing of Subjects of Criminal Investigations in
the Department of Defense,” May 14, 1992, prescribes policy for titling and indexing, as
follows:

                “4.3. The DoD standard that shall be applied when titling
                and indexing the subjects of criminal investigations is a
                determination that credible information exists that a person
                or entity may have committed a criminal offense or is
                otherwise made the object of a criminal investigation.”
                (Emphasis Added)
                “4.4. Titling is an operational rather than a legal decision
                and final responsibility for the decision to title an
                individual or entity shall rest with the investigative
                officials designated to do so by the DoD Components.”
                (Emphasis Added)




                                                                                         25
     Part II – Evaluation Results
           C – Compliance with Criminal Investigative Policy
              DoDI 5505.7 defines the terms “credible information” and “subject,” as follows:

                       “Credible Information. Information disclosed or obtained
                       by an investigator that, considering the source and nature of
                       the information and the totality of the circumstances, is
                       sufficiently believable to indicate criminal activity has
                       occurred and would cause a reasonable investigator under
                       similar circumstances to pursue further the facts of the case
                       to determine whether a criminal act occurred or may have
                       occurred.”
                       “Subject. A person, corporation, other legal entity, or
                       organization about which credible information exists that
                       would cause a reasonable person to suspect the person,
                       corporation, other legal entity, or organization may have
                       committed a criminal offense, or otherwise make a person,
                       corporation, legal entity, or organization the object of a
                       criminal investigation.”


             Our case analyses indicate that DLA criminal investigators do not title subjects in
     accordance with DoDI 5505.7. We reviewed DLA criminal investigative files to identify
     the dates on which the investigators presented the cases to internal DLA counsels or non-
     DLA counsels, such as an AUSA, and to review the counsels' decisions. We found that
     DLA presented most cases to internal DLA counsels and, while the counsels’ decisions
     varied to some extent, most addressed whether the subject should be titled. We also
     found that the decisions addressed titling in terms of either “probable cause” or
     “sufficient evidence,” not credible information.

             The Director, DCIA, advised us that criminal investigators, not DLA counsels,
     actually make titling decisions in all DCIA investigations. According to the Director,
     standard ROI language may need changing to prevent misperceptions that DLA counsels
     make these decisions. However, we could not adequately correlate this situation to
     imprecise standard ROI language. Specifically, we did not review any file that identified
     an investigator’s decision to title based on “credible information.” Files that we
     reviewed, however, did include “suspects” who were not titled after a DLA counsel
     opined that either (1) the evidence was insufficient to title, or (2) there was insufficient
     probable cause to title. Therefore, even if the Director was correct that criminal
     investigators were making the titling decisions, action was needed to avoid the
     appearance that DLA counsels made these decisions.



29
     DCII was established in 1966, as a “computerized central index of investigations for all DoD investigative
     activities.” (DoDD 5505.7, Paragraph F.4.) DCII is a comprehensive tool used by DoD criminal
     investigators, personnel security specialists, and clearance adjudicate personnel to locate investigative files.
     26
Part II – Evaluation Results
      C – Compliance with Criminal Investigative Policy
         Following our exit conference on May 15, 2000, the Director, DCIA, issued a
Policy Memorandum, Subject: “Titling and Counsel Coordination,” confirming the DoD
policy that investigators are responsible for titling and indexing decisions. The policy
memorandum also adopts standard report language “… to ensure there is no
misinterpretation of the coordination with counsel … as being the basis for titling a
subject…” This new policy should help alleviate the perception that DLA counsels make
the titling decisions in DLA investigations.

        FINGERPRINT CARDS AND CRIMINAL HISTORY REPORTING

        DoDI 5505.11, “Fingerprint Card and Final Disposition Report Submission
Requirements,” December 1, 1998, requires fingerprint cards, criminal history, and final
case disposition reporting to the Federal Bureau of Investigation for all military
investigative subjects. DLA has not issued guidance implementing this policy. In
addition, our detailed case evaluations indicated, and the Director, DCIA confirmed, that
DCIA has not previously complied with DoDI 5505.11 requirements.

        VICTIM AND WITNESS ASSISTANCE

        DoDD 1030.1, “Victim and Witness Assistance,” November 23, 1994, and
DoDI 1030.2, “Victim and Witness Assistance Program,” December 23, 1994, require
heads of Defense Agencies, among other things, to “… develop polices and procedures to
implement the victim and witness assistance program in their components….”
DoDI 1020.2 requires the local responsible official, law enforcement officer, or
criminal investigation officer, at the earliest opportunity after a crime victim or witness
is identified, to provide the following services to each victim and witness, as appropriate:
            • DD Form 2701, “Initial Information for Victims and Witnesses of Crime,
as a handout to convey basis information and points of contact;
            • information about available military and civilian emergency medical and
social services and, when necessary, assistance in securing these services;
            • information about restitution or other relief a victim may be entitled to
under 42 U.S.C. §10601 et seq, 42 U.S.C. §10681, 18 U.S.C. §1512-1514, or other
applicable laws, and the manner in which such relief may be obtained;
            • information to victims of intra-familial abuse offenses on the availability
of limited transitional compensation benefits and possible entitlement to some of the
active duty member’s retirement benefits under 10 U.S.C. §1058, §1059, and §1408;
            • information about public and private programs that are available to
provide counseling, treatment and other support, including available compensation
through Federal, state, and local agencies, using the Department of Justice Resource
Guide to Victim and Witness Assistance;
            • information about the prohibition against intimidation and harassment of


                                                                                         27
Part II – Evaluation Results
      C – Compliance with Criminal Investigative Policy
victims and witnesses, and arrangements for the victim or witness to receive reasonable
protection from threat, harm, or intimidation from a suspected offender and from people
acting in concert with or under the control of the suspected offender;
            • information about the military criminal justice process, the role of the
victim or witness in the process, and how the victim or witness can obtain additional
information concerning the process and the case; and
            • if necessary, assistance in contacting the people responsible for providing
victim and witness services and relief.

        DoDI 1030.2 further provides that law enforcement investigators and criminal
investigators shall inform all victims and witnesses, as appropriate of:
           • the status of the investigation of the crime, to the extent providing such
information does not interfere with the investigation;
           • the arrest of the suspected offender;
           • a decision not to pursue prosecution; and
           • the preferral or referral of charges against the suspected offender.

        DLA has not issued guidance to implement the DoD policy on victims and
witnesses. Even though our case evaluations showed that DCIA investigations generally
do not involve victim and witness issues, DCIA should nonetheless promulgate
procedures to ensure compliance with victim and witness assistance requirements. In
fact, the infrequency of victim/witness issues further supports formal procedures to
ensure effective compliance when the need arises.

        RECOMMENDATIONS, MANAGEMENT COMMENTS AND EVALUATION
        RESPONSE

       Recommendation C.1 The Director, Defense Logistics Agency, issue
necessary guidance to implement the following DoD policies:
           • DoD Instruction 5505.11, “Fingerprint Card and Final Disposition Report
Submission Requirements,” December 1, 1998; and
           • DoD Directive 1030.1, “Victim and Witness Assistance,” November 23,
1994, and DoD Instruction 1030.2, “Victim and Witness Assistance Procedures,”
December 23, 1994.


        Management Comments.

       DLA concurred and advised that its estimated completion date for actions is
October 1, 2001. The agency noted, however, that it does not have UCMJ authority and
must defer considerations concerning Service member compliance with DoD directives


28
Part II – Evaluation Results
      C – Compliance with Criminal Investigative Policy
and instructions, as well as judicial and nonjudicial punishments, to the parent Service.


        Evaluation Response

        The DLA comments are responsive.

        Recommendation C.2 The Director, DLA Criminal Investigations Activity,
arrange needed training and/or take other action as necessary to ensure that DLA
Criminal Investigations Activity investigators are familiar with, and adhere to
requirements in, the following DoD policies:
            • DoD Directive 5505.9, “Interception of Wire, Electronic, and Oral
Communications for Law Enforcement,” April 20, 1995;
            • DoD Instruction 5505.7, “Titling and Indexing of Subjects of Criminal
Investigations in the Department of Defense,” May 14, 1992;
            • DoD Instruction 5505.11, “Fingerprint Cards and Final Disposition Report
Submission Requirements,” December 1, 1998; and
            • DoD Directive 1030.1, “Victim and Witness Assistance,” November 23,
1994, and DoD Instruction 1030.2, “Victim and Witness Assistance Program,”
December 23, 1994.


        Management Comments

      DLA concurred and advised that its estimated completion date for actions is
October 1, 2001.


        Evaluation Response

        The DLA comments are responsive.




                                                                                            29
Appendix A. OIG, DoD Memorandum Regarding
            DLA Investigative Jurisdiction




                                        A-1
Appendix B. DCIA Resident Offices


DCIA-C (General Investigations Resident Offices)
       •   Ft. Belvoir, Virginia
       •   Boston, Massachusetts
       •   Columbus, Ohio
       •   Stockton, California
       •   Los Angeles, California


DCIA-E (Europe Resident Office)
       •   Wiesbaden, Germany


DCIA-T (Trade Security Control Resident Offices)
       •   Atlanta, Georgia
       •   Battle Creek, Michigan
       •   Ft Belvoir, Virginia
       •   Memphis, Tennessee
       •   Columbus, Ohio
       •   Ogden, Utah
       •   Pacific (Hawaii)




                                                   B-1
     Appendix C. Evaluation Results -- Random Case
                 Sample

              DLA provided a COSACS “data dump” for investigative cases closed between
     January 1, 1996, and February 28, 1999. After performing necessary data conversions,
     we had OIG statisticians select a statistically valid, random sample from DLA’s closed
     cases for the 38-month period for detailed case evaluations. This selection resulted in a
     100 case random sample upon which determinations could be made with +10 percent
     reliability.

             The 100 case random sample selected for detailed evaluation involved
     151 investigative subjects. However, 64 percent of the sample (64 cases involving
     68 investigative subjects) were not criminal investigations with supporting investigative
     case files. In addition, 4 investigations involving 10 subjects were essentially duplicative
     case files.30 Our detailed evaluations were limited to actual investigations with
     supporting investigative files, which totaled 32 cases and 73 investigative subjects
     (32 percent and 48 percent, respectively, of the cases and investigative subjects included
     in the sample). We evaluated these cases to determine:
                  • the specific criminal violations/offenses investigated by DLA
     investigators;
                  • the extent to which DLA investigators use generally recognized criminal
     investigative techniques;
                  • the extent to which DLA investigators present their cases to Federal, state
     and local prosecutors;
                  • the extent to which DLA investigations are conducted jointly with other
     agencies; and
                  • the criminal, civil, and administrative remedies that result from DLA
     investigations, including:
                         the estimated Government losses resulting from the crimes and the
     amounts recovered as a result of the investigations; and
                         the administrative, including disciplinary, actions taken against DLA
     investigative subjects.




30
     One DCIA case involved a supervisor and two employees falsely certifying that equipment sold for scrap
     had been de-militarized. The case involved various equipment or metals and various sales transactions.
     DCIS treated each scrap sale transaction as a violation and established a separate case file for the violation.
     The case files, however, were essentially duplicates even though each contained a Report of Investigation.
     For example, the cases resulted in one employee administrative action for each subject, which was the
     basis for closing all the case files. For our purposes, we treated these cases as one investigation involving
     three subjects.
                                                                                                                C-1
Appendix C. Evaluation Results—Random Case Sample


DLA Investigative Subjects

        Most DLA criminal investigative subjects (89.04 percent) are DLA employees or
military members assigned to work at DLA.

                                        Table 2
                             Type of Investigative Subjects

                              Subject Type               Subjects

                                                     No         %
                          DLA Employee *                 65     89.04%
                          Contractor                      4         5.48%
                          Civilian                        3         4.11%
                          Contractor Employee             1         1.37%
                          Total                          73    100.00%
                       * Includes two military members assigned to work at DLA



Criminal Violations/Offenses Investigated by DLA
Investigators

        DLA investigates more cases that deal with employee standards of conduct
(21.9 percent of cases and 12.3 percent of subjects) than any other type case. The next
highest case category, False Statements, is 12.5 percent of total cases and 5.5 percent of
total subjects.

                                        Table 3
                             Types of Offenses Investigated

                       Offense                                      Cases          Subjects

Code                      Description                         No.       %        No.    %
 9000    Standards of Conduct                                   7       21.88%     9    12.33%
 9A05    False Statements                                       4       12.50%     4     5.48%
 8C04    Security Trade Control Violations                      3        9.38%     8    10.96%
 7F0D    Larceny, Government Funds                              3        9.38%     3     4.11%
 7I00    Wrongful Sale/Diversion (Government Property)          2        6.25%     9    12.33%


C-2
                                      Appendix C. Evaluation Results—Random Case Sample

 9A07 Time & Attendance/Leave Violations                      2     6.25%      2     2.74%
 9B03 Gambling                                                1     3.13%     23    31.51%
 4B00 Security Violation/Sabotage                             1     3.13%      4     5.48%
 7F0C Larceny, Government Property (Over $100)                1     3.13%      2     2.74%
 8A01 ADP Irregularities/Other                                1     3.13%      2     2.74%
 5C03 Assault. Simple                                         1     3.13%      1     1.37%
 5Q0B DWI (Drugs/Alcohol)                                     1     3.13%      1     1.37%
 9A06 Fraudulent Travel Claims                                1     3.13%      1     1.37%
 600B Sex Crimes (Involving Adult)                            1     3.13%      1     1.37%
 8B01 Progress Payments                                       1     3.13%      1     1.37%
 9A11 False Claims                                            1     3.13%      1     1.37%
 5S00 Communications Incidents (Threat/Demonstration)         1     3.13%      1     1.37%
     Totals                                                  32   100.00%     73   100.00%



Extent To Which DLA Investigators Routinely Use Generally
Recognized Criminal Investigative Techniques

        DLA investigators routinely use some, but not all, generally recognized criminal
investigative techniques.

                                   Table 4
                 Generally Recognized Investigative Techniques
                    That DLA Investigators Use Routinely

                  Investigative Technique           Subjects Used On

                                                        No          %
               DCII Check                                    72         99%
               Records Review                                72         99%
               Witness Interview                             61         84%

       DLA investigators also generally use surveillance in cases where this technique is
applicable:
            • Time and Attendance investigations (100 percent of the subjects);
            • Larceny of Government Property--Over $100 (100 percent of the
subjects); and
            • False Claims (100 percent of the subjects).




                                                                                       C-3
     Appendix C. Evaluation Results—Random Case Sample

             DLA investigators also conducted Electronic Surveillance in one investigation.31
     Based on total investigations, however, surveillance is not an investigative technique that
     is used routinely.

                                              Table 5
                            Generally Recognized Investigative Techniques
                            That DLA Investigators Do Not Use Routinely

                              Investigative Technique                            Subjects Used On

                                                                                  No.            %
               Surveillance                                                             11          15%
               National Crime Information Center (NCIC) Check                            2           3%
               Crime Lab Analysis                                                        2           3%
               Sting Operation                                                           1           1%
               Search Warrant                                                            0           0%
               Arrest Warrant                                                            0           0%
               Polygraph Examination                                                     0           0%



     Extent To Which DLA Investigators Present Their Cases To
     Federal, State And Local Prosecutors

            DLA investigators generally presented their cases to DLA counsel (78 percent of
     the subjects). However, they rarely presented their cases to criminal prosecutors
     (8 percent of the subjects) and court results were rare in DLA cases (4 percent of the
     subjects).32


     Extent To Which DLA Investigations Are Conducted Jointly
     With Other Agencies

             Investigations that DLA conducted jointly with other agencies represented
     34 percent of the cases and 33 percent of the subjects in our random sample. The joint
     investigations involved the following offenses.




31
     The investigator requested and received authorization from an Assistant United States Attorney before
     using this technique. However, as discussed in the report, use of this investigative technique was contrary
     to DoD policy.
32
     None of the cases in the sample involved Rule 6(e) Grand Jury Information.
     C-4
                                        Appendix C. Evaluation Results—Random Case Sample

                                    Table 6
           Violations/Offenses Involved In DLA Joint Investigations

                      Violation/Offense                      Joint Investigations
                                                            (% of Offense Total)

                                                             Cases      Subjects
      Wrongful Sale/Diversion (Government Property)              100%         100%
      Progress Payment                                           100%         100%
      Security Trade Control Violation                            67%          88%
      False Statement                                             50%          50%
      Standards of Conduct                                        43%          44%
      Larceny, Government Funds                                   33%          33%

        In contrast, nonjoint DLA investigations involved the following offenses:
            • Assault, Simple;
            • ADP Irregularities/Other;
            • Communications Incidents Threat/Demonstration ( 1 case, 1 subject--
threatening coworkers);
            • DWI (Drugs/Alcohol);
            • False Claims;
            • Fraudulent Travel Voucher;
            • Gambling;
            • Larceny, Government Property (Over $100);
            • Security Violation/Sabotage (1 case, 4 subjects--exchanged computer
password);
            • Sex Crime Involving Adult (1 case, 1 subject--alleged to have committed
adultery while on official duty travel—case administratively closed due to insufficient
evidence); and
            • Time & Attendance/Leave Violation.


Criminal, Civil And Administrative Remedies That Result
From DLA Investigations

       Estimated Government Losses Resulting From The Crimes And
       The Amounts Recovered Through the Investigations

       As shown in the table below, overall, DLA investigations resulted in either court

                                                                                      C-5
     Appendix C. Evaluation Results—Random Case Sample

     recoveries or administrative recoveries that totaled 99.7 percent of the estimated
     Government losses resulting from the activities investigated.33

                                                 Table 7
                                         Investigative Recoveries

                Type of            No. of         Estimated           Court             Administrative
                Subject           Subjects        Gov. Loss         Recoveries*          Recoveries
            Civilian                             3     $32,074,306            $9,500             $32,074,306
            Contractor                           4          223,363           28,750                  80,000
            Contractor                           1                 0               0                       0
            Employee
            DLA                                 65            60,079          18,649                   26,279
            Employee**
            Total                               73     $32,357,748          $56,899              $32,180,585
            % Recovery                                                         .2%                    99.5%
            *     Fines, penalties, restitution and special assessments
            ** Includes 2 military members assigned to work at DLA

             However, both the estimated Government losses and investigative recoveries are
     substantially influenced by one investigation, which was not typical of day-to-day DLA
     investigations.34 The table below shows the same data after excluding this investigation.

                                            Table 8
                        Investigative Recoveries Excluding Atypical Case

           Type of Subject           No. of       Estimated          Court             Administrative
                                    Subject       Gov. Loss        Recoveries*          Recoveries
                                       s
           Civilian                          3               $0              $9,500                       $0
           Contractor                        4          223,363              28,750                   80,000
           Contractor Employee               1                0                   0                        0
           DLA Employee**                   65           60,079              18,649                   26,279


33
     Estimated Government losses for equipment recoveries are valued at original acquisition cost, which may
     exceed significantly the current fair market value.
34
     This investigation, case number T920872, represents 99.1 percent of the total estimated loss and
     99.5 percent of the total recoveries. In this regard, we note that DLA included the recovery involved in
     this case in COSACS, but did not include the amount as an estimated Government loss. According to
     DLA, the Government property involved was seized before being unloaded from a contracted Government
     hauler to avoid reloading costs and, while the property was never physically removed from Government
     control, it was recovered. We cannot accept this position. It is not possible to recover property that was
     not lost. Accordingly, we treated the property as both a loss and a recovery for our purposes. The only
     alternative would have been to treat it as a “loss avoidance” and exclude it from recoveries.
     C-6
                                                  Appendix C. Evaluation Results—Random Case Sample

           Total                            73         $283,442             $56,899                 $106,279
           % Recovery                                                        20.1%                    37.5%
         *  Fines, penalties, restitution and special assessments
         ** Includes two military members assigned to work at DLA

             As can be seen in this table, which better portrays the financial consequences of
     DLA’s day-to-day investigative results, DLA recovers a substantial portion (20.1% +
     37.5% = 57.6 percent) of the estimated Government losses resulting from the activities
     investigated. Court-ordered fines, penalties, restitution and special assessments
     accounted for 35 percent of the total recoveries and administrative recoveries accounted
     for the remaining 65 percent.


             Administrative, Including Disciplinary, Actions Taken Against
             DLA Investigative Subjects

             DLA investigations result primarily in either no action against the investigative
     subject (12 percent of the subjects) or employee disciplinary actions (60 percent of the
     subjects).35 In addition, most of the disciplinary actions taken are verbal or written
     reprimands (84 percent of the subjects with disciplinary actions).36 In more serious
     employee disciplinary cases, employees are generally allowed to resign or retire, rather
     than face removal from Federal service.

                                              Table 9
                                  Types of DLA Investigative Results

                Investigative Results                      Cases                  Subjects

                                                      No.        Percent        No.        Percent
            Administrative Action                           15        47%             44        60%
              Verbal Reprimand                               1         7%             19        43%
              Written Reprimand                              9        60%             18        41%
                 Total Reprimands                           10        67%             37        84%
              Suspension from Work                           1         7%              3         7%
              Job Reassignment                               2        13%              2         5%
              Resignation                                    1         7%              1         2%
              Retirement                                     1         7%              1         2%
                 Total Administrative                       15       100%             44       100%


35
     As can be seen in Table 9, employee discipline represented the only type of administrative action that
     resulted from DLA investigations.
36
     Some actions were not completed on subjects at the time of our fieldwork -- 13 percent of the cases in our
     random sample did not have final action reports.
                                                                                                            C-7
     Appendix C. Evaluation Results—Random Case Sample

           No Action Taken                                  6       19%              9        12%
           Allegation(s) Unsubstantiated                    4       13%              7        10%
           Court Action                                     3        9%              3         4%
           Final Action Report Not Received                 4       13%             10        14%
              Total                                        32      100%             73       100%



     Extent To Which DLA Investigations Substantiate The
     Allegations

             Neither the investigative case tracking system, COSACS, nor individual
     investigative case files specifically identify whether an investigation substantiated the
     allegation(s) investigated. However, they do identify when the investigation did not
     substantiate the allegation(s).37 For our random sample, this data indicated that
     13 percent of the cases (4 cases involving 7 subjects, or 10 percent of the total subjects)
     were closed as unsubstantiated (See Table 9).




37
     COSACS includes a “Violations” data field. When investigation does not substantiate that a violation
     occurred, the initial data entry in this field is deleted.




     C-8
Appendix D. DCIA Overtime and Comptime

                                Table 10
                    DLA Overtime and Comptime Cost
                             Compared to
                      What LEAP Would Have Cost
                   (By Criminal Investigator and Total)

      Period Ended 1/30/1999*                    Period Ended 1/29/2000*

No   Regular     LEAP     Comptime Comptime Regular       LEAP     Comptime Comptime
**    Pay         @       Overtime Overtime  Pay           @       Overtime Overtime
                (25%)        $        %                  (25%)        $        %
 1    $53,460   $13,366     $10,231   19.14%   $58,873   $14,718     $13,243   22.49%
 2    $53,370   $13,342      $9,208   17.25%   $59,906   $14,976      $9,445   15.77%
 3    $50,790   $12,698      $7,607   14.98%   $59,570   $14,893      $9,292   15.60%
 4    $59,263   $14,816      $8,062   13.60%   $57,398   $14,349      $7,970   13.89%
 5    $53,080   $13,270      $6,901   13.00%   $53,766   $13,442      $7,456   13.87%
 6    $52,962   $13,240      $5,782   10.92%   $60,054   $15,014      $7,067   11.77%
 7    $52,921   $13,230      $5,619   10.62%   $62,743   $15,686      $6,411   10.22%
 8    $17,863    $4,466      $1,762   9.86%    $59,165   $14,791      $5,071   8.57%
 9    $74,001   $18,500      $6,161   8.33%    $49,615   $12,404      $4,163   8.39%
10    $59,608   $14,902      $3,792   6.36%    $77,435   $19,359      $6,468   8.35%
11    $43,298   $10,824      $2,741   6.33%    $58,820   $14,705      $4,734   8.05%
12    $51,137   $12,784      $2,886   5.64%    $66,466   $16,616      $4,662   7.01%
13    $50,256   $12,564      $2,552   5.08%    $62,728   $15,682      $3,641   5.80%
14    $52,706   $13,177      $2,664   5.06%    $55,117   $13,779      $2,830   5.13%
15    $83,322   $20,830      $4,084   4.90%    $52,690   $13,172      $1,974   3.75%
16    $54,573   $13,643      $1,867   3.42%    $59,039   $14,760      $1,871   3.17%
17    $58,702   $14,676      $1,855   3.16%    $92,741   $23,185      $2,722   2.93%
18    $59,110   $14,778      $1,668   2.82%    $67,456   $16,864      $1,745   2.59%
19    $56,003   $14,001      $1,542   2.75%    $62,670   $15,668       $626    1.00%
20    $54,394   $13,599       $982    1.80%    $60,214   $15,054       $281    0.47%
21    $55,523   $13,881       $790    1.42%    $57,795   $14,449       $128    0.22%
22    $56,995   $14,249       $608    1.07%    $34,227    $8,557       $0.00   0.00%




                                                                                D-1
 23     $20,362    $5,090       $113        0.56%
 24     $62,974   $15,743       $285        0.45%
Tot $1,286,678 $321,670     $89,760         6.98% $1,203,343 $300,836   $89,362      7.43%
     * 26 Pay Periods
     ** GS-1811 Criminal Investigators


                                  Table 11
                       DLA Overtime and Comptime Cost
                               Compared To
                        What LEAP Would Have Cost
                                   (Total)

           Period             LEAP     Actual Comp/ LEAP Would Have
           Ended            Would Have   Overtime      Cost More
                               Cost        Cost
                                                                 Amount       Percent
              1/30/1999 *        $321,670              $89,760     $231,910       72.1%
              1/29/2000 *        $300,836              $89,362     $211,474         0.70
      Total – Amount             $622,505             $179,122     $443,383       71.2%
      Total – Percent **           25.0%                 7.2%
      * 26 Pay Periods
      ** Percentage of salary without LEAP or Comptime/Overtime




D-2
Appendix E. Report Distribution


Office of the Secretary of Defense
None


Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)*
Inspector General, Department of the Army
Commander, U.S. Army Criminal Investigation Command*


Department of the Navy
Naval Inspector General*
Director, Naval Criminal Investigative Service*


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)*
Inspector General, Department of the Air Force
Commander, Air Force Office of Special Investigations*


Other Defense Organizations
Director, Defense Criminal Investigative Service*


Non-Defense Federal Organizations and Individuals
None



* Recipient of draft report




                                                                               E-1
Appendix F. Management Comments




                                  F-1
Appendix F. Management Comments




F-2
Appendix F. Management Comments




                            F-3
Appendix F. Management Comments




F-4
Appendix F. Management Comments




                            F-5
Appendix F. Management Comments




F-6
Appendix F. Management Comments




                            F-7
Appendix F. Management Comments




F-8
                       Evaluation Team Members
Deputy Assistant Inspector General for Criminal Investigative Policy and Oversight,
Office of the Assistant Inspector General for Investigations, Office of the Inspector
General, Department of Defense.


Jack L. Montgomery, Project Manager

Thomas Gribben, Criminal Investigator

Ms. Nakita Pounds, Investigative Review Specialist
